ml

(? j) <--■?

qJ;

ja
i

IN THE SUPREME COURT IF THE UNITED STATES

filed
JUL 13 2021

* * * * *

WILSHAUN KING, Petitioner

v

MICHIGAN, Respondent

★ * * * *

On Petition for Writ of Certiorari to
The Sixth Circuit Court of Appeals
★ * ★ ★ *

PETITION FOR WRIT OF CERTIORARI
* ★ * ★ *

im

/s/
Wilshaun King #642708 ()
Kinross Correctional Facility
4533 W. Industrail Park Dr.
Kincheloe, Michigan 49788

QUESTIONS PRESENTED

I. PETITIONER'S TRIAL COUNSEL WAS APPROACHED AT THE TIME THE JURY RETIRED FOR
DELIBEARITONS BY PROSECUTING ATTORNEY SCOTT EHLFELDT TENDERING A PLEA OFFER
FOR PETITIONER. TRIAL COUNSEL CHOSE NOT TO INFORM PETITIONER KING ABOUT THE
PLEA OFFER. SUBSEQUENTLY, PETITIONER WAS FOUND GUILTY ALL CHARGES AND
SENTENCED TO A MANDATORY LIFE WITHOUT PAROLE SENTENCE, 10 TO 50 YEARS, AND 2
YEARS 11 MONTHS TO 10 YEARS SENTENCE. COUNSEL PROVIDED AN AFFIDAIVT DETAINING
THAT HE FAILED TO INFORM PETITONER OF THE PLEA THAT WAS OFFERED. DOES THE
SIXTH AMENDMENT RIGHT TO THE EFFECTIVE ASSISTANCE OF COUNSEL EXTEND TO PLEA
OFFERS DURING JURY DELIBERATIONS?

II. DURING THE COURSE OF PETITIONER'S TRIAL, A NON-TESTIFYING EXAMINER'S
AUTOPSY REPORT, OPINION AND CONCLUSIONS WERE USED BY A SUBSTITUTE MEDICAL
EXAMINER, TESTIFYING FACTUALLY OF HER EXPERT OPINIONS AND USING AN ANATOMICAL
SKETCH BASED ON THE NON-TESTIFYING MEDICAL EXAMINER'S OPINIONS AND
CONCLUSIONS. DOES THE SIXTH AMENDMENT INVOKE THE CONFRONTATION CLAUSE MAKING
THE AUTOPSY REPORT TESTIMONIAL WHEN IT IS SPECIFICALLY PERFORMED FOR USE IN
LATER CRIMINAL PROSECUTIONS?

TABLE OF CONTENTS

PAGE
QUESTIONS PRESENTED

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

1

OPINION BELOW

1

JURISDICTION................................................................

2

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
I. REASONS FOR GRANTING THE WRIT............................

11
11

SECTION A

19

SECTION B

21

II. REASON FOR GRANTING THE WRIT
29

CONCLUSION

iii

TABLE OF AUTHORITIES
PAGE(S)

CASE AND OTHER AUTHORITIES:
Banks v Beard 524 US 406 (204)....
Price v Johnston 334 US 226 (1941)

19
13

28 USC § 2254................................................
Sanders v United States 373 US 1 (1963).
Townsend v Sain 372 US 293 (1963)...........
Glover v United States 531 US 198 (2001)
Linretti v United States 516 US 29 (1995).
United States v Morrison 449 US 361 (1981)

13
13

Strickland v Washington 466 US 668 (1988)
Santobello v New York 404 US 257 (1971)..
People v Ginther 390 Mich 436 (1973)
Padilla v Kentucky 559 US 356 (2010)
Hill v Lockhart 474 US 52 (1985)....
Missouri v Frye 566 US 156 (2012)...
Lafler v Cooper 566 US 156 (2012)...
Holland v Florida 560 US 631 (2010).
Pace v DiGulielmo 544 US 408 (2005).
28 USC § 2254(d)
Buileaning v New Mexico 564 US 665 (2011)••••••
Melendez-Diaz v Massachusetts 577 US 305 (2009)
Crawford v Washington 541 US 36 (2004)
Williams v Illinois 567 US 50 (2012)
U.S. Const. Amend. VI
Commonwealth v Avil 454 Mass 744 (2009)
People v Dendel 289 Mich App 445 (2010)
State v Locklear 363 N.C. 438 (2009)
Bailem v Florida 2017 US Dist LEXIS 97912
Nardi v Pepe 442 F3d 107 (1st Cir 2011)...............
United States v James 712 F3d 79 (2nd Cir. 2003)
United States v Ignasiak 667 F3d 1217 (11th Cir. 2012)
Garlick v Miller 2020 US Dist. LEXIS 7456....................
Henseley v Roden 755 F3d 724 (1st Cir. 2014).................
Mitchell v Kelly 520 F App'X 329 (6th Cir. (2013)....
Davidson v Bowersox 2014 US Dist LEXIS 3097 (8th Cir)

iv

13,19
14
14
14,15
15
15
16
15,17
17
17
18
19
19
20
21
21,26
25
25
25
26
26
26
28
28
28
28
28
28
28
28

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT
The Petitioner respectfully seeks that a Writ of Certiorari issue to
review the judgment and opinion of the Sixth Circuit Court of Appeals rendered
in these proceedings on April 20, 2021.

OPINION BELOW
The Sixth Circuit Court of Appeals affirmed Petitioner's conviction in
its Case No. 20-2074. The Opinion is unpublished and is reprinted in this
appendix to this petition. See Appendix

JURISDICTION
The original opinion of the Sixth Circuit Court of Appeals was entered on
April 20, 2021.
The jurisdiction of this Court is invoked under 28 USC § 1254.

1

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
The following Statutory and Constitutional provisions) are involved in
this case.
U.S Const. Amend VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation;

to be

confronted with

the witnesses

against

him;

to

have

compulsory process for obtaining witnesses in his favor, and to have the
assistance of Counsel for his defence.
U.S. Const. Amend XIV
Section 1. All persons bom or naturalized in the United States, and subject
to the jurisdiction thereof are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
28 USC § 2254
(a) The Supreme Court, a justice thereof, a circuit judge, or a district court
shall entertain an application for writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court only on the ground that
he is in custody in violation of the Constitution or laws or treaties of the
United States.

2

(b)(1) An application for writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted unless
it appears that—
(A) the applicant has exhausted the remedies available in the courts of the
State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the
rights of the applicant.
(2) An application for writ of habeas corpus may be denied on the merits;
notwithstanding the failure of the applicant to exhaust the remedies available
in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or
be estoppel from reliance upon the requirement unless the State# through upon
the

requirement

unless

the

State;

through counsel expressly waives the

requirement.
(C) An applicant shall not be deemed to have exhausted the remedies available
in the courts of the State# within the meaning of this section# if he has the
right under the law of the State to raise# by any available procedure# the
question presented.
(d) An application for writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to# or involved an unreasonable
application of# clearly established Federal law# as determined by the Supreme
Court of the United States; or#

3

(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceedings.
(e)(1) In a proceeding instituted by an application for writ of habeas corpus
by a person in custody pursuant to the judgment of a

state

court/

a

determination of a factual issue made by a state court shall be presumed to be
correct. The applicant shall have the burden of rebutting the presumption of
Correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in
state court proceedings, the court shall not hold an evidentiary hearing on
the claim unless the applicant shows that—
(A) the claim relies on—

,

(i) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable; or
(ii)

a factual predicate that could not have been previously discovered

through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear
and convincing evidence that but for constitutional error,

no reasonable

factfinder would have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in
such state court proceedings to support the state court's determination of a
factual issue made therein, the applicant, if able, shall produce that part of
the record pertinent to a determination of the sufficiency of the evidence to
support such determination. If the applicant,because of indigency or other
reasons is unable to produce such part of the record, then the State shall
produce such part of the record and the Federal Court shall direct the State
to do so by order directed to an appropriate State official. If the State

4

cannot provided such pertinent part of the record, then the court shall
determine under the existing facts and circumstances what weight shall be
given to the State court's factual determination.
(g) A copy of the official records of the state court, duly certified by the
clerk of such court to be a true and correct copy of a finding, judicial
opinion, or other reliable written indicia showing a factual determination by
the state shall be admissible in Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substance Act, in all
proceedings brought under this section, and any subsequent proceedings on
review, the court may appoint counsel for an applicant who is or becomes
financially unable to afford counsel, except as provided by a rule promulgated
by the Supreme Court pursuant to statutory authority. Appointment of counsel
under this section shall be governed by section 3006A of title 18.
(i) The ineffectivenss or incompetence of counsel during Federal or State
collateral post-conviction proceedings shall not be a ground for relief in a
proceedings arising under section 2254.

5

STATEMENT OF THE CASE
Petitioner Wilshaun King# was convicted by jury of murder in the first
degree MCL 750.316/ one count of assault with the intent to murder MCL 750.83,
and one count of assault with intent to do great bodily harm less than murder.
His trial was presided over by Judge Annette Berry,

in the Wayne County

Circuit Court for the State of Michigan. On May 18, 2007, he was sentenced to
imprisonment to the following sentences; life without the possibility of
parole, 10 to 50 years and 2 years and 11 months to 10 years for all of the
charges mentioned above. A timely appeal was filed. Petitioner also filed a
Motion for new trial and request for Ginther hearing which were denied on
November 2, 2007 prior to the filing of his direct appeal of right to the
Michigan Court of Appeals. On January 12, 2010 the Michigan Court of Appeals
affirmed his conviction and sentences. Petitioner sought leave to appeal in
the Michigan Supreme Court which was denied on July 2, 2010.
Petitioner by and through attorney Daniel J. Blank filed a timely Writ of
Habeas

Corpus

in

the Eastern

District

of

Michigan

Southern

Division.

Thereafter a motion to hold in abeyqnce was filed to exhaust state court
remedies,

which

petitioner's

upon

trial

the

counsel

discovery
Mr.

of

Terry A.

newly
Price,

reliable

evidence

from

a plea was offered to

Petitioner which trial counsel stated in an affidavit that he failed to inform
petitioner about. On August 2, 2013 Judge Avern Cohn, granted the motion to
hold the writ in abeyance for this claim to be properly exhausted.
Petitioner then filed a Motion for Relief from Judgment in the Wayne
County 3rd Circuit Court in Michigan for the county of Wayne on or about
September 28, 2013. On January 3, 2014 after the prosecution responded to the
Petitioner's motion, the Honorable Circuit Court Judge Megan Maher Brennan
Ordered that "an Evidentiary Hearing on Defendant's Motion for Relief from
Judgment is hereby GRANTED." (See January 3, 2014 Order).

6

Shortly after the GRANT of Petitioner's Motion/ between January 4, 2014
and July 2014 the Prosecution sought for Hon. Judge Megan Maher Brennan to
return the case to the Judge Annette Berry who now worked as a judge on the
civil docket. The prosecution stated that justice Berry would be in a better
position to rule on the Motion and apparently Hon. Judge Brennan agreed.
Upon Judge Berry resuming control over the case docket/ she immediately
dismissed the Motion for Evidentiary Hearing that was granted and set the
order of Hon. Judge Brennan aside and again ordered the prosecution to
respond. On January 9/ 2015 Judge Berry then Summarily denied Petitioner's
Motion for Relief from Judgement and denied Petitioner's request for an
Evidentiary Hearing as well.
Petitioner proceeded in a timely fashion to address this claim in the
Michigan Court of Appeals and the Michigan Supreme Court which were both
denied (See exhibits). On April 8/ 2017 in accordance with Justice Cohen's
order/ Petitioner filed his motion to add the newly discovered issue of
ineffective assistance of counsel for failure to properly advise him of a plea
offer/ within the 60 days after fully exhausting his state court remedies.
The facts above were added to the following fact of the 1st issue which
petitioner presented in his initial filing for Writ of Habeas Corpus in the
Eastern District of Michigan Southern Division. After jury selection trial
counsel Terry A. Price objected to the anticipated testimony of a substitute
medical

examiner

insisting

Confrontation Clause Rights.

that

it

would be

It was known

to

violative of
the

Petitioner's

prosecution

that

Dr.

Pasquale-Styles/ had since taken a position in New York. The prosecution
instead of attempting to secure this witness/ decided to call a substitute
medical examiner Dr. Cheryl Lowe. Dr. Lowe was not present during the autopsy

7

nor did she assist Dr. Pasquale-Styles in any form including the anatomical
sketch/ photos/ opinions and conclusions of the victims manner of death. Prior
to giving her testimony, Dr. Lowe extensively reviewed Dr. Pasquale-Styles
morgue file, photographs, reports and anatomical sketch.
234-242).

(T.T. 3-20-07 pp

Gathering the same information from Dr. Pasquale-Styles autopsy

report, opinions and conclusions which contained information provided by the
Homicide section that the victim died as a result of being intentionally
struck by a motor vehicle. Dr. Lowe, stated the similar language of Dr.
Pasquale-Styles' report, that the deceased died from a head injury consistent
with being struck by an automobile. (T.T. 3-20-07 pp. 234-238).
On August 1, 2005, the victim and a person referred to as L.B. were
fighting after L.B. kicked a Ms. Clayboume in the face over a money dispute.
After the fight L.B. left the area and returned with a person by the name of
Guy Washington and a second fight ensued. Ms. Claybourne and the victim went
to her mother's home and her mother called several family members to come
over. The victim, along with Ms. Clayboume, and the family members who were
called went back to the area looking for L.B. Witnesses testified that
Petitioner was driving the SUV that struck and killed the victim.

(T.T.

3-20-07 pp. 20-150).
Ardrella King testified that Petitioner left her residence at 9:30 am.
Petitioner was taking his son,

to Belle Isle.

Mrs.

King testified that

Petitioner was driving with his son in a 1997 Neon car when he left her home.
She further testified that Petitioner returned home around 1:30 pm or 2:00 pm.
(T.T. 3-21-07 pp 140-141).
Petitioner testified that he left Mrs. Kings home around 9:30 am to take
his son to Belle Isle, and that he was driving a Neon car.

He further

testified that he never owned nor drove a Ford Explorer or SUV on the day in

8

question. On his way to taking his son to Belle Isle/ he observed a large
crowd of people fighting in the area of Cyril and St. Thomas street. He saw
his cousin in a headlock and exited his car. At this time a person presumably
L.B. pulled up in a SUV truck and stated to Ms. Claybourne "bitch where is my
m/f money." At this time Petitioner punched the person who had his cousin in a
headlock in the jaw with his fist. The individual let his cousin go and
Petitioner got back in his car and left the area with his son. (T.T. 3-21-07
pps 151-162).
In the prosecutions closing argument the prosecution focused on the
testimony of the substitute medical examiner to prove that the victim died as
a result of being intentionally struck by a SUV truck and not from the
injuries sustained in the multiple fights he was involved in that day. The
prosecution stated:
"She [medical examiner] testified in her expert opinion
based on her experience and expertise/ these injuries that
she saw on Tyree Jones were consistent with the injuries
sustained in a motor vehicle crash."
He further stated:
'These injuries are/ according to the medical examiner/
from a motor vehicle crash. That does not change. Mr.
Price can harp on it all he wants about what you would
expect to find despite what the medical examiner said. He
can argue with you until he's blew in the face that these
injuries sustained at the hand of a beating, but when you
couple them altogether the medical examiner's opinion
says, no, not from a beating at all." (T.T. 3-22-07 pp
15-16). (emphasis added).
It is clear that the prosecution relied heavily on the opinions and
conclusions of Dr. Pasquale-Styles' who did not testify whose information and
opinions were based on information provided by the homicide section that the
victim was intentionally struck by a motor

vehicle.

The

facts

further

demonstrates that the substitute medical examiner's opinions, conclusions and
testimony_were_also_formed_from—the—bias—of—information—provided—by—the-

9

non-testifying medical examiner's autopsy report which contained opinion and
conclusions from homicide section that the victim was intentionally struck by
a motor vehicle. All other relevant facts necessary are included with the
REASONS FOR GRANTING THE WRIT.

10

•REASONS FOR GRANTING THE WRIT
I. THE SIXTH CIRCUIT'S MISAPPLICATION AND UNREASONABLE APPLICATION OF CLEARLY
ESTABLISHED FEDERAL LAW FROM STRICKLAND V WASHINGTON, AND LAFLER V COOPER
WARRANTS THIS COURTS ATTENTION FOR REVIEW.
SECTION A:
The Sixth Circuit erred in its decision when it misapplied first, that an
evidentiary hearing for Petitioner's ineffective assistance of counsel claim
did not apply. At the time of Petitioner King's trial he was unaware that the
assistant prosecutor offered a plea deal at the time the jury went into
deliberations. Petitioner during the filing of his initial habeas corpus was
represented by attorney Daniel J. Blank. Attorney Blank filed Petitioner's
Habeas petition prior to the expiration of the (1) one year time limit event
though an additional (90) ninety days was available, on or about July 1, 2011.
Petitioner filed a motion to Stay on or about July 30, 2013 when through his
appellate counsel that trial counsel Terry A. Price had information concerning
a plea offer that was made to Petitioner that he never informed petitioner
King about, on or about July 30, 2013. The Eastern District of Michigan
GRANTED the motion to stay the timely filed Habeas petitioner on August 2,
2013 so that this claim could be properly exhausted.
On August 20,

2013 Petitioner received an affidavit via his retained

counsel Mr. Blank from his trial counsel Mr. Terry A. Price. In the affidavit
attorney Price offered sworn admissions that he failed to inform Petitioner of
a plea that was offered during the course of trial when the jury retired to
begin deliberations.
On January 3, 2014 a reasonable jurist in the form of the Honorable judge
Megan Maher Brennan, after a presentation of the petitioner's evidence Ordered
for an Evidentiary Hearing to be held. It is notable that Justice Brennan
stated:

11

"After a thorough review of the record/ there is evidence
to support a claim of ineffective assistance of trial
counsel. An attorney must notify his/her client of any and
all settlement offers/ mediations/ evaluations and plea
bargains. As such/ the allegations and evidence presented
in this motion are sufficient to warrant an evidentiary
hearing on the basis of ineffective assistance of counsel
under the standards provided for relief pursuant to MCR
6.500." Id page 4-5 of Justice Megan Maher Brennan's
January 3/ 2014 Order, (emphasis added).
The prosecution after the grant of this motion pursued a more favorable
decision and moved to request that the original trial judge Annette Berry
resume authority over the case stating that Judge Berry would be in a better
position to rule on an ineffective assistance of counsel claim in the instance
case. Petitioner ask this court to consider what made Judge Berry's position
better to rule on Petitioner's claim of ineffective assistant of counsel than
Judge Brennan's upon the evidence submitted for determination? i.e. the sworn
affidavits of Petitioner's trial counsel stating that he failed in his Sixth
Amendment rights to petitioner to inform him of a plea offer. Petitioner s
father's affidavit and Petitioner's affidavit stating that he was unaware of a
plea offer that was made to him until he received the information from his
appellate counsel in July of 2013. And that had he known about the offer he
would have accept the plea agreement.
This ruse by the prosecution worked! Upon/ justice Berry resuming control
over the case she quickly moved to reverse the GRANT of Justice Brennan's
Evidentiary hearing that was granted to Petitioner/ and Order the prosecution
to respond. On January 9,

2015 Judge Berry summarily denied Petitioner's

motion for relief from judgment and denied petitioner's request for an
evidentiary hearing as well. Petitioner then traversed the ordinary appellate
process filing timely applications for appeal in the Michigan Court of Appeals
and Michigan Supreme Court which were denied. It must be noted that Petitioner
continued to request for an evidentiary hearing in all respective courts which
was denied.

12

What is most interesting about Judge Berry's opinion is that its reasons
for denying Petitioner's evidentiary hearing and motion for relief from
judgment are the very factors that would have been brought to light at the
very same evidentiary hearing that was denied. Nor does her opinion mention
whether or not the court would have accepted or denied the plea offer which is
a factor that must be considered when a criminal defendant is offered a plea
bargain. This Court held/ "where a petitioner makes "specific and detailed
factual assertions" an evidentiary hearing must be scheduled. Price v Johnston
334 DS 226 (1941); 28 OSC § 2254. As petitioner can show by Justice Breannan's
Order to first GRANT the evidentiary hearing, it is clear that is was not
conclusively shown that this claim is without merit, thus Petitioner should
have receive an evidentiary hearing in Federal Court as well. Machibroda v
United States 368 US 487, 495-96 (1962). This Court in Stephens v Kemp 469 US
1043 (1984) held:
• • • • whether the petitioner's response is elected in
writing or through oral arguments the governing standard
is clear; if the response pleads facts that, if true,
would entitle the petitioner to relief, an evidentiary
hearing must be held to determine those facts. Sanders v
United States supra at 21-22. Tbwnsend v Sain 372 US 293,
313 (1963), further held evidentiary hearing must be held
:unless the state court trier of fact has after a full
hearing reliably found the relevant facts." Id (emphasis
added).

There was no reliable found facts by any full and fair hearing from the
state-court trier of fact in the instant case. In fact the prosecutor provided
no affidavits from prosecutor Scott Ehlfeldt stating that a plea was never
offered to petitioner's counsel to present to his client. The trial court only
took the prosecutions response as facts over the sworn affidavit from trial
counsel stating that a plea was offered and he failed to inform petitioner.
These facts would have been presented at the very same evidentiary hearing
that Judge Brennan GRANTED, but Judge Berry decided to reverse the decision
and denied the motion and evidentiary hearing.

13

This Court recognized that "any amount of actual jail time has Sixth
Amendment significane" when evaluating Strickland's prejudice prong. Glover v
United States 531 US 198/ 203 ( 2001). In this case for petitioner to be
offered a plea at the behest of the prosecution, once the case was closed and
in the hands of the jury, provided significant implication for the right to
the effective assistance of counsel. At this stage, once counsel ignored the
timing of such offer and failed to convey the plea offer to petitioner
amounted to factual and actual prejudice.
Attorney Terry A. Price provided an affidavit on August 8, 2013 detailing
his ineffectiveness by failing to advise petitioner King of the plea offer by
the prosecution while the case was in the hands of the jury at the time of
deliberations. As a result of this the petitioner received much more prison
time than he would have but for the constitutional violation that occurred by
not informing petitioner of the plea.
This Court held that: "[I]t is the responsibility of defense counsel to
inform a defendant of the advantages and disadvantages of a plea agreement."
Linretti v United States 516 US 29, 50 (1995). Strickland explained that
counsel has a duty to consult with the defendant on important decisions and
keep the defendant informed of important developments in the cause of the
prosecution." Id 466 US at 688.
Here where counsel admits to being derelict in these duties the two prong
test of Strickland was met and petitioner relinquishment of the plea offer
because it was unknown to him must afford him an opportunity to a remedy that
neutralizes

the

taint

and

an

appropriate

relief

tailored

to

these

circumstances must be given. See United States v Morrison 449 US 361, 365
(1981).
Petitioner submitted an affidavit attesting to the fact that had he known
about a plea offer that was tendered by the prosecution at such a critical

14

stage as during jury deliberations he would have jumped at the opportunity for
accepting it. A reasonable probability exist where but for counsel's errors
petitioner would have accepted the plea offer rather than proceed to verdict/
the prejudice prong of Strickland is satisfied.
Petitioner suffered injury by his conviction and receiving a more severe
sentence than he would have received had he been appropriately counseled and
accepted the plea. So this outcome is not a just result. Strickland 466 OS at
685/ because it would not exist absent counsel's "constitutional deficiency."
Padilla 130 SCt at 1482.
In Santobello v New York/ the Court considered the appropriate remedy to
be imposed after the prosecution breached a plea deal with the defendant.
Instead of selecting a specific remedy/ the Court remanded the case concluding
that ”[t]he ultimate relief to which petitioner is entitled" should be left
"to the discretion of the state court/ which is in a better position to
decided

whether

the

circumstances

of

the

case

necessitated

specific

performance of the plea agreement or the opportunity for the defendant to
withdraw his plea entirely. 404 US 257/ 262-63 (1971).
The trial court reviewing this ineffective assistance of counsel claim
was in the best position to craft a remedy that addressed the injury suffered
from

the

constitutional

violation

without

unnecessarily

infringing

on

competing interest. Morrsion 449 US at 364. This could have only been done if
the trial court held a proper evidentiary hearing as the facts of this case
affords but the trial court denied granting a hearing.
The interesting thing about his case is Petitioner filed a timely writ of
habeas corpus. On August 2, 2013/ the Honorable Avem Cohn of the United
States District Court for the Eastern District of Michigan stayed the matter
pending resolution of the ineffective assistance of counsel claim. This was
based on Petitioner's appellate counsel receiving newly discovered evidence

15

via an affidavit from petitioner's trial counsel Terry A. Price stating that
he failed to advise petitioner of a plea that was offered by the prosecution
during jury deliberations. Attorney Price submitted an affidavit to appellate
counsel on August 20, 2013 stating that "the jury begin its deliberations at
approximately 11:42 am and during this time trial counsel was approached by
prosecutor Scott Ehlfeldt with a plea agreement in which petitioner King would
be offered a (10) ten year minimum sentence of incarceration.
On or about September 30/ 2013/

Petitioner by and through attorney

Patrick J. McQueeny, filed a Motion for Relief from Judgment in the trial
court. The motion was accepted and on January 3/ 2014 before the Honorable
Judge Brennan Petitioner's claim of ineffective assistance of counsel was
granted and an evidentiary hearing was ordered. A convicted person who attacks
the adequacy of the representation he received at his trial must prove his
claim. To the extent his claim depends on fact not of record/ it is incumbent
on him to make a testimonial record at the trial court level. See People v
Ginther 390 Mich 436, 443 (1973).
Petitioner asserts as the Michigan Supreme Court has emphasized:

"A

defendant who wishes to advance claims that depend on matters not of record
can properly be required to seek at the trial court level an evidentiary
hearing for the purpose of establishing

his

claim with evidence

as

a

precondition to invoking the process of the appellate courts...." Id
So, Petitioner was granted an evidentiary hearing to establish the claim
of ineffective assistance of counsel by Judge Brennan. Before the hearing
could be held petitioner's case was transferred to the original trial court
judge Annette Berry. Judge Berry move quickly and set-aside Judge's Brennan's

16

order for the evidentiary hearing which was based on the affidavits of trial
counsel Terry A. Price, swearing that a plea was offered and he failed to
advise petitioner of the plea. Judge Berry instead ordered the prosecution to
respond to the motion a second time and upon the prosecutions response denied
petitioner's motion for relief from judgment and the motion for an evidentiary
hearing.

Although,

Petitioner presented sufficient proof

that

this

case

warranted an evidentiary hearing from the sworn affidavit of trial counsel
stating that he failed to advise petitioner King of the plea offer that was
made during the jury's deliberation by the prosecution.
"The negotiation of a plea bargain is a critical phase of
litigation for purposes of the Sixth Amendment right to
the effective assistance of counsel." Paddilla v Kentucky
559 US 356, 373 (2010) citing Hill v Lockhart 474 US 52,
57 (1985). Plea bargains have become so central to the
administration of the criminal justice system that defense
counsel have responsibilities in the plea bargain process,
responsibilities that must be met to render the adequate
assistance of counsel that the Sixth Amendment requires in
the criminal process at critical stages. Missouri v Frye
566 US 134, 143 (2012).
Absent unusual circumstances, where counsel has adequately apprised a
defendant of the nature of the charges and the consequences of a plea, the
defendant can make an informed and voluntary choice whether to pleas guilty or
go to trial without a specific recommendation from counsel. Here Petitioner,
was never informed about the plea offer. Missouri v Frye dictates that counsel
"MUST" inform his/her client of a plea offer made by the prosecution. When
defense counsel allows

[such an]

offer to expire without advising

the

defendant or allowing his [or her] to consider it, defense counsel [does] not
render the effective assistance the Constitution requires. Id.

T7-

King/ received via a swoim affidavit from his trial counsel
August 8th, 2013. The affidavit consisted of the fact that trial counsel was
offered a plea to present to his client before the jury returned with its
verdict. Counsel admitted via his sworn affidavit, that he did not communicate
the offer to Petitioner King, who allowed the process to proceed to verdict.
Like Frye, counsel's failure in the instance case to present the plea offer to
Petitioner violated his rights to the effective assistance of counsel. This
Court stated:
"To show prejudice from ineffective assistance of counsel
where a plea offer has lapsed or been rejected because of
counsel's
deficient
performance,
defendants
must
demonstrate a reasonable probability they would have
accepted the earlier plea offer had they been afforded
effective assistance of counsel. Defendant must also
demonstrate a reasonable probability the plea would have
been entered without the prosecution canceling it or the
trial court refusing to accept it, if they had the
authority to exercise that discretion under state law. To
establish prejudice • • • / it is necessary to show a
reasonable probability that the end result of the criminal
process would have been more favorable by reason of a plea
to a lesser charge or a sentence of less prison time." Id
Frye 566 US at 147-48. (emphasis added).
Counsel's failure to inform Petitioner of the plea offer prejudiced him,
because of counsel's failure to advise petitioner of the plea he received a
mandatory life without the possibility of parole sentence, along with current
terms of 10 to 50 years, and 2 years 11 months to 10 years for all the charges
he was found guilty under.
when petitioner shows ineffective assistance of counsel has caused the
rejection of a plea leading to a trial and a more severe sentence; the remedy
like other Sixth Amendment remedies should be tailored to the injury suffered
from the constitutional violation and should not unnecessarily infringe on
competing interests. Lafler v Copper 566 US at 170-71.

18

SECTION B: MISAPPLICATION OF EQUITABLE TOLLING
Petitioner,

states that the Sixth Circuit

misapplied

the

equitable

tolling. Petitioner can clearly show that extraordinary circumstances stood in
his way and prevented the filing of this issue on direct appeal to the state
courts. The affidavit of Petitioner's trial attorney Terry A. Price presented
substantial evidence that warrants an evidentiary hearing. The evidence of
trial counsel's affidavit is newly discovered evidence and upon learning of
this information around June or July of 2013. Petitioner by and through his
attorney Mr. Blank quickly moved to stay the proceedings in his federal habeas
corpus which the Hon. Judge Avem Cohn GRANTED. Taking the equitable tolling
time into account this Court held:
"State criminal convictions are final for the purpose of
retroactivity analysis when the availability of direct
appeal to the state courts has been exhausted and the time
for filing a petition for writ of certiorari has elapsed
or a timely filed petition had been finally denied." Banks
v Beard 524 US 406 (2004). (emphasis added).
Petitioner filed a timely petition for writ of habeas corpus. While the
timely filed petition was still pending.

Petitioner learned of critical

information that would prove that he received ineffective assistance of
counsel. Specifically, when the jury retired for deliberations the prosecutor
Scott Ehlfeldt proposed a plea offer to trial attorney Terry A. Price, which
Mr. Price never advised Petitioner that the plea was offered. Petitioner did
not learn of this information until after his timely filed petition was
submitted. So the standards set forth in Holland v Florida 560 US 631, 649
(2010); and Pace v DiGuglielmo 544 US 408, 418 ( 2005) should apply here, where
trial counsel's failure to advise petitioner of the plea bargain offer at the
close of the prosecutions case during jury deliberations was an extraordinary
circumstance that stood in the way and prevented the timely filing of this
issue if this court applies a time bar to the issue.

19

Where the facts are in dispute the federal court in habeas corpus must
hold an evidentiary hearing if the habeas applicant did not receive a full and
fair evidentiary hearing in a state-court/ either at trial or in a collateral
proceeding. Townsend v Sain 372 US 293/ 312 (1963); see also 28 USC § 2254(d).
After the introduction of trial counsel Price's affidavit stating he failed to
inform petitioner of a plea offer and the grant of an evidentiary hearing to
afford a full and fair hearing on this matter. For a second judge to reverse
the decision to hold an evidentiary hearing should have afforded the habeas
court greater reason to follow the mandates as set forth above. Townsend v
Sain supra;see also 28 USC § 2254(d).
Petitioner seeks redress in this Court for the purpose of clarifying
whether the Sixth Amendment right to the effective assistance of counsel is
guaranteed; Where a plea is offered at the time when a jury commences its
deliberations? Also/ where trial counsel admits that he failed to inform his
client of the plea should an evidentiary hearing be mandated for the purpose
of establishing facts that are not of record?
Because the Sixth Circuit Court of Appeals applied an unreasonable
application

of Strickland

and mischaracterized

Petitioner's

affidavit(s)

stating that he and his father knew of the plea offer where the affidavits
presents no such evidence/ certiorari must be granted. Further review of the
questions presented herein warrants this Court's supervisory powers/ as to how
far does the the Sixth Amendment right to the effective assistance of counsel
extend in the trial process?
For

the

these

reasons

presented

certiorari.

20

herein

this

Court

should

GRANT

II. THE SIXTH CIRCUIT'S MISAPPLICATION OF CLEARLY ESTABLISHED FEDERAL LAW FROM ■
BULLCOMING V NEW MEXICO, MELENDEZ-DIAZ V MASSACHUSETTS AND CRAWFORD V
WASHINGTON WARRANT'S THIS COURT'S ATTENTION FOR CONSIDERATION.
The Sixth Circuit misapplied the standards established by the above
Supreme Court decisions. The questions Petitioner presents warrants certiorari
review

by

this

Court,

for

the

purpose

of

establishing:

Whether

the

Confrontation Clause is invoked for the purpose of autopsy reports, anatomical
sketches, etc • $ which are specifically prepared for later use in a criminal
prosecution? Especially, when a substitute medical examiner is called upon to
testify about the conclusions and opinions of the non-testifying medical
examiner?
In Bullcoming v New Mexico 564 US, 665 (2011), this Court held that a
"scientific report is testimony as explained ante at 666-664, 180 LEd2d at
623-624, in Melendez-Diaz v Massachusetts 577 US 305 (2009), "we held that
"certificate of analysis," completed by employees of the State Laboratory
Institute of Massachusetts Department of Public Health" id at 308, 129 SCt
2527, 174 LED2d 314, "were testimonial because they were "incontraverbily • • •
"solemn declaration[s] or affirmation[s] made for the purpose of establishing
or proving some fact," id at 310.
An

autopsy

report

is

prepared

specifically

for

the

purpose

of

establishing or proving some fact, which in all cases is the manner of death.
When the words used in the autopsy report reflects phrases such as INTENTIONAL
SHOOTING, INTENTIONALLY STRUCK BY A MOTOR VEHICLE, or INTENTIONALLY • • • •in any
form speaking to the manner of a victims death. It is clear that the purpose
of the report is to prove a fact that some form of criminal intent occurred in
the homicide.

21

f/

It is clear that Dr. Lcwe's testimony was used for the "primary purpose"
of establishing or proving past events relevant to the criminal prosecution at
hand. Dr. Lowe's findings were conducted after the initial investigation/
thus/ her conclusions and opinions are far removed from the investigation
stage and moves into the realm of proving facts that the victim in this case
was killed as a result of being intentionally struck by a SUV which the
Petitioner was accused of driving. In the instance case because Dr. Lowe's
conclusions and reports were prepared for the primary purpose of being used in
Petitioner's criminal trial. The non-testifying medical examiner's autopsy
report became testimonial in nature for the purpose of cases such as this.
Here Dr. Lowe's report was conducted when it was clear that there was a
particular suspect and the facts found in Dr. Pasquale-Styles initial report
were ultimately relevant to prove facts in a criminal trial. Petitioner's
Confrontation Clause rights where violated because the trial court denied the
objection

and

non-testifying

ultimately
medical

allowed

examiner's

the

use

autopsy

of

report

Dr.
and

Pasquale-Styles'
any

opinions

a
and

conclusions from in report to be read as if Dr Lowe performed the examination,
(see T.T. 3-19-07 pp. 137) By proxy the trial court allowed Petitioner's
confrontation clause rights to be circumvented and the non-testifying author's
report was admitted via Dr. Lowe's testimony/

thus violating Petitioner's

rights.
The harmless error analysis was misapplied by the Federal court in the
instance

case

where/

Petitioner

had

no

chance

to

cross-examine

Dr.

Pasquale-Styles and Dr. Lowe's testimony was based on the contents of the
autopsy/ photographs and opinions of the non-testifying medical examiner*
Although Dr.

Pasquale-Styles'

autopsy report may not have been primarily

prepared for he purpose of use in a later criminal prosecutions. The use of
the substitute medical examiner^

in-the-instant-case-was -produced-by—the-

22

prosecution for the purpose of the criminal prosecution of the Petitioner. If
this were not so/ the prosecution would have made an attempt to at a minimum
provide the medical examiner Dr. Pasquale-Styles by way of subpoena or other
means at its disposal. Instead/ the prosecution intentionally chose to subvert
petitioner Kings rights to confront Dr. Pasquale-Styles and chose to present a
substitute medical examiner by way of Dr. Cheryl Lowe. Dr. Lowe's testimony
was

allowed

to

inject

portions of Dr.

Pasquale-Styles'

autopsy report#

opinions and conclusions into evidence without being tested by the crucible of
cross-examination. Which were those that were consistent with the prosecutions
theory.
Defense counsel did object at trial to the introduction of Dr. Lowe's
testimony stating the following:
Mr. Price: Well# Judge# I can brief this for you in the
morning# but its really an oral motion in limine and it
goes to the testimony of the medical examiner in this
manner.
The Court: Okay.
Mr. Price: And we believe that the routine factual
findings contained in the autopsy report are not
testimonial statements under Crawford v Washington# but
the examiner's opinions based ion facts in the autopsy
report, since this is not the examiner that prepared that
report# we think that those opinions and any statement
that seem to project opinions are testimonial under
Crawford and if those statements are read out of the
autopsy report we believe the only person that could read
them should be the person who prepared the report. Under
Crawford, that is. So we would ask for a redaction of the
medical examiner's record in totality except when it comes
to issues that are pure facts, but there's quite a lot of
opinion and quite a lot of opinion interwound in that we
think the Court should allow us the opportunity to present
you with a redacted copy and then you can view it to see
if what's left is purely fact and this is because the
person who prepared the report is no longer employed by
the medical examiner and I'm aware of the fact that there
is an evidentiary rule that says that the medical reports
are business records exception# but Crawford is a
constitutional rule and I think that the case itself
a ronstitutional rule to confront and question the

23

witness against you and I think/ Judge/ that the part of
the autopsy report is testimonial and if its testimonial
it should be stricken unless the person who prepared it is
here to testify about it. (T.T. 3-19-07 pp 134-135).
When a medical examiner performs an autopsy report/ the report given is
based on the medical examiniers experiences/

knowledge

of

anatomy,

and

opinions of the particular examiner. The opinions are in large part based on
the individual medical examiner's knowledge/

and information provided by

police officers which was gather at the initial point of investigation. At
this point of the investigation of every emergency situation the police are
gathering information which is largely based on opinions until the facts of
the matter are rooted out/ for the purpose of criminal charges. However/ when
officers are called to the scene for the
purpose of particular matters/ all
information and evidence is gather specifically for the purpose of use in a
later criminal prosecution including the autopsy report.
The medical examiner's testimony in the instance case was offered for the
truth of the matter and thus/ falls inside the
scope of the Confrontation
Clause. The medical examiner's testimony was offered as a factual bases of the
victims death occurring because he was hit by an SUV. And to dispute the
factual evidence that the victim was involved in several fights
and his
injuries were not sustained due to these fights. Dr. Lowe's testimony
was
identical to the opinions of the non-testifying medical examiner
Dr.
Pasquale-Styles opinions using additions or subtractions of words from the
original

report

such

as

the non-testifying medical

examiner wrote

the

following:
Tyree L. Jones/ a 50 year old black male/ died of blunt
force cramocerbal injuries. As reported he was a
pedestrain who was intentionally struck by a motor

ESESi.

p“,"1Mtyl" autopsy

Interestingly to note/ the description of Mr. Jones' death as given by
Dr. Pasquale-Styles' autopsy report sates (2) two significant factors which is
proof that the report was being prepared for the purpose of use in a latter

24

r

prosecution which are INtknTIONALLY STRUCK. The testifying medical examiner
after reviewing the autopsy opinions and conclusions of the non-testifying
medical examiner. Dr. Lowe state in here testimony the following:
Mr. Tyree L. Jones# who was a fifty year old black male/
died of cranial cerebral injury# essentially head and
skull injury# as a consequence of a pedestrian who
reportedly was intentionally struck by a motor vehicle.
(T.T. 3-20-07 p. 234) (emphasis added).
Again# the words INTENTIONALLY STRUCK shows that the purpose of this
testimony was offer for the truth of the matter which aligns the petitioner's
Confrontation Clause rights to be subjected to a violation in cases such as
this. It can be seen that the testimony of Dr. Lowe is indistinguishable from
the autopsy report # opinions and sketch the Michigan Court of Appeals stated
the trial court ruled was inadmissible. However# this determination was not
true the trial court in-point-of-fact allowed the non-testifying medical
examiner's opinions# conclusions and autopsy report to be allowed in by proxy
of Dr. Lowe's testimony. Thus# violating Petitioners right to Confrontation.
US Const. Amend. VI see also Crawford v Washington 541 US 36 (2004).
Petitioner request that this Court reexamine its decision in Williams v
Illinois 567 US 50 (2012)# the dissent written by justice Kagan is in line
with the argument set forth herein. Trial counsel actually objected to the use
of anything other than the factual information that the original medical
examiner reported which the court never allowed a determination of what was
factual and what was opinions and conclusions. There was no attempt by the
state to subpoena Dr. Pasquale-Styles# to secure her testimony for the purpose
of Petitioner's trial. The prosecution intentionally chose to move forward
with a medical examiner# who did not perform the original autopsy report. One
can only guess at why the prosecution choose to move forward with such a
violation# even after defense counsel's objection to the medical examiner

25

testifying about opinions and conclusions from the original report taken by
Dr. Pasquale-Styles as evidence. Although/ when a judge sits as a trier of
fact/ it is presumed that the judge will understand the limited reasons for
the disclosure of the underlying inadmissible information. Accordingly both
Michigan and Federal law bars experts from disclosing inadmissible evidence.
Fed. Rule Evid. 703. MRE 703.
Where

a

non-testifying

medical

examiners

autopsy

report

and

other

relevant conclusions are used by a secondary medical examiner who neither took
part in or witnessed the autopsy is violative of a Petitioners Sixth Amendment
right. Petitioner never had an opportunity to question Dr. Pasquale-Styles in
an adversarial setting which is critical to the crucible of confrontation in
regards to her notes/ opinions/ and conclusions which were reported to her by
the homicide section. This information was the bases for Dr. Lowe's testimony
and use of the anatomical sketch. Commonwealth v Avil 454 Mass 744 (2009)/ was
found to be most persuasive by a Michigan Court of Appeals panel in the
published case of People v Dendel 289 Mich App 445 (2010)# and to be mist
consistent with the Supreme Court's holding in Melendez-Diaz/ it is also the
most factually analogous to this case. The court in Avil held that statements
in an autopsy report prepared by a nontestifying medical examiner were subject
to

confrontation/

notwithstanding

the

statements

served

as

the

facts

underlying the testifying expert's opinion. Similarly/ the court in State v
Locklear 363 N.C. 438 (2009)# concluded that statements in an autopsy report
and forensic dentistry reports were subject to confrontation. These holdings
are fully consistent with this Courts ruling in Melendez-Diaz.
The non-testifying medical examiner's autopsy report and opinions were
bootstrapped into evidence through a substitute medical examiner. The crucial
factor here is that the trial court according to the Michigan Court of Appeals
and the Sixth Circuit specifically excluded the use of the non-testifying

26

medical examiners autopsy report opinions and conclusions. Taking the position
of these courts the intentional bootstrapping of the non-testifying medical
examiners autopsy report opinions and conclusions by allowing a substitute
medical examiner to testify was violative of petitioners rights.
Both Dr. Pasquale-Styles and Dr. Lowe reported that the victim died as a
result of being INTENTIONALLY STRUCK by a motor vehicle. This information was
exclusive relayed to the medical examiner by way of the homicide section.
Petitioner/ never had the opportunity to question/confront Dr. Pasquale-Styles
regarding these opinions of the victims cause of death being a result of being
intentionally struck by a motor vehicle. Dr. Lowe's testimony regarding the
cause of death could only come form the opinion of the non-testifying medical
examiner. In this case as the Sixth Circuit/ the Eastern District of Michigan
Federal Court/ and the Court of Appeals properly recognized the trial court
did not allow the autopsy report or any of the opinions and conclusions of the
author of the report to be admitted, (see Court of Appeals/ Eastern District
of Michigan and Sixth Circuit opinions attached). Yet, the most critical
opinion and conclusions of the testifying medical examiners autopsy report was
intentionally allowed to enter the jury's sphere. That is that Mr. Jones'
death occurred as a result of being "intentionally struck by a motor vehicle."
Even taking the prior Courts error of the conclusion that/ Petitioner did
not contest the factual data. Trial counsel specifically asked for a redacted
version of the report to be done first.

This was not afforded to the

Petitioner. The trial court according to the lower courts did not allow the
autopsy report/

conclusions

and

opinions of

Dr.

Pasquale-Styles

to be

introduce as evidence. The anatomical sketch that was used were based on Dr.
Pasquale-Styles' opinions and conclusions, the manner of death, that was also
opinions and conclusions based on the information provided by the homicide
section.

27

Trial counsel even renewed his objection after Dr. Lowe's testimony
stating:
I want to renew my objection to this Medical Examiner even
being allowed to testify to this autopsy report because we
think its testimonial/ her additional statements and it's
a Crawford violation. It's a violation of his 6th
Amendment rights. (T.T. 3-20-07 p. 278)
Because the question presented here shows United States Court of Appeals
continue to be in conflict with the other United States Court of Appeals
concerning this issue of autopsy reports calling upon a Petitioner's right to
Confrontation. See Bailem v Florida 2017 US Dist. LEXIS 97912; Nardi v Pepe
442 F3d 107/ 112 (1st Cir 2011)(Even now[after Melendez-Diaz and Bullcoming/]
it is uncertain whether/ under its primary purpose test/ the Supreme Court
would classify autopsy reports as testimonial); United States v James 712 F3d
79/ 99 (2nd Cir 2003)(holding that an autopsy report is not testimonial);
United States v Ignasiak 667 F3d 1217/ 1230-31 (11th Cir. 2012)(holding that
autopsy reports are testimonial); Garlick v Miller 2020 US Dist. LEXIS 74546
(2nd Cir); Hensely v Roden 755 F3d 724 (1st Cir 2014); Mitchell v Kelly 520 F.
App'X 329, 331 (6th Cir 2013) ([T]he decision • • • [that an autopsy report was
admissible as a nontestimonial business record]

was not an unreasonable

application of Crawford given the lack of Supreme Court precedent establishing
that an autopsy report is testimonial."); Davidson v Bowersox 2014 US Dist.
LEXIS 3097 (8th Cir)(autopsy report is not testimonial.
Petitioner states that this question presents a review of this Court's
supervisory powers which are necessary as the Circuit Courts are in conflict
as to: When an autopsy report is prepared for the later use of criminal
prosecutions is a criminal defendants right to the Confrontation invoked?
State Courts and United States Court of Appeals continues to decide this
question-which—should-be-addressed-by—this-Court

28

CONCLUSION
Petitioner Wilshaun King/ presents two questions which calls upon this
Court to decide critcal matters that affects important factors in State and
Federal trials. The GRANT of CERTIORARI and ruling upon these questions will
be in aid of the Court's appellate jurisdiction. This case warrants this
Court's discretionary powers# and adequate relief cannot be obtained in any
other form or from any other court.
For the reasons stated herein this Court should GRANT this Writ of
Certiorari.

Wilshaun King

29

